wr

@OCKLE

2311 Douglas Street j E-Mail Address:
Cnha, Nebrska 681021214 Legal Briefs contaceockelegatorefscom
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-67
UNITED STATES OF AMERICA,
Petitioner,

Vv.
EVELYN SINENENG-SMITH,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE RUTHERFORD INSTITUTE, THE AMERICAN
CIVIL LIBERTIES UNION, THE AMERICAN CIVIL LIBERTIES UNION OF NORTHERN CALIFORNIA, AND THE
SERVICE EMPLOYEES INTERNATIONAL UNION AS AMICI CURIAE SUPPORTING RESPONDENT in the above

entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN W. WHITEHEAD
DOUGLAS R. MCKUSICK

ERIN GLENN BUSBY
Counsel of Record

THE RUTHERFORD INSTITUTE LISA R. ESKOW

109 Deerwood Rd. MICHAEL F. STURLEY

Charlottesville, VA 22911 UNIVERSITY OF TEXAS

SCHOOL OF LAW

DAVID D. COLE SUPREME COURT CLINIC

AMERICAN CIVIL LIBERTIES 727 East Dean Keeton St.
UNION FOUNDATION Austin, TX 78705

915 Sth St, NW (713) 966-0409

Washington, D.C. 20005 ebusby@law.utexas.edu
ESHA BHANDARI
CECILLIA D. WANG
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad St.
New York, NY 10004

Subscribed and sworn to before me this 20th day of January, 2020. |
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

hess Clit Qnduawh, Oly

Notary Public Affiant

PATRICIA BILLOTTE
General Notary
State of Nebraska

My Commission Expires Nov 24, 2020

 

 

39355
 

 

Attorneys for Petitioner

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States

 

Attorneys for Respondent

Mark Christopher Fleming WilmerHale 617-526-6000
Counsel of Record 60 State Street
Boston, MA 02109

mark.fleming@wilmerhale.com

Party name: Evelyn Sineneng-Smith

 

 
